V

-?564

ORIGINAL
Supreme Court, U.S.
FILED

IN THE

MAR 0 8 2021

SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK

NO.

EMEM UFOT UDOH
Petitioner,
vs.
UNITED STATES DISTRICT COURT, District of Minnesota,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO REVIEW THE USCA8 CASE NO. 20-2952 IN
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:16-CV-4174 (PAM/HB)

PETITION FOR WRIT OF CERTIORARI

EMEM U. UDOH
MCF - Rush City
7600 525™ Street
Rush City, MN 55069

PRO SE PETITIONER

QUESTIONS PRESENTED FOR REVIEW
On April 10, 2018, Appellant initiated a Minnesota State Court post­
conviction action raising several issues or claims of constitutional violations and
seeking reliefs. Amongst the issues or claims raised for post-conviction relief,
Appellant raised the Ground that - Appellant is entitled to an acquittal and release
based on the newly discovered exonerating evidence showing actual innocence
which is based on recantations of key material witnesses’ testimony for relief. The
recantation affidavits from K.K.W and K.C.W were re-signed by K.K.W and K.C.W.
at the evidentiary hearing and were entered as evidence into the Administrative
Record. The recantation affidavits and recantation testimony are exculpatory facts
clearly showing that no incident of sexual abuse happened between April 2012
through February 2013 in Defendant’s home or within the Hennepin County
Jurisdiction. The recantation affidavits and recantation testimony also noted the
threats, the demands, the pressure, the coaching, the coercions, the benefits, and
the promises made to K.K.W. and K.C.W. to give a statement of sexual abuse
against Petitioner between February 2013 through August 2014, and a trial
testimony of sexual abuse against Defendant in August 2014. The first question
presented for review on grounds consistent with Petitioner’s actual innocence is:
1. Whether Honorable District Judge Paul A. Magnuson Failed To Consider
Petitioner’s Habeas Claim Titled Or Styled As:
Ground Four - Argued as Ground Two on Memorandum of Law:
The District Court erred in admitting evidences that
were in violation of appellant’s due process clause under
the Fourteenth Amendment and denied appellant’s
constitutional right to a fair trial.

PETITION by Udoh - Page ii

In Petitioner’s Original Habeas Corpus Petition Because No Other
Adequate Remedy For Habeas Corpus Relief On That Claim In Light
of Kerr. v. United States District Court, 426 U.S. 394, 400 (1976); And
Hollingsworth v. Perry, 558 U.S. 183, 190 — 91 (2010)?

PETITION by Udoh - Page iii

TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW

II

TABLE OF CITED AUTHORITIES.............

V

LIST OF PARTIES..........................................

VII

INTRODUCTION

1

STATEMENT OF JURISDICTION AND VENUE

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

RELIEF SOUGHT

2

THE ISSUES PRESENTED FOR MANDAMUS RELIEF

3

REASON FOR GRANTING THE PETITION

3

CONCLUSION

PETITION by Udoh - Page iv

25

TABLE OF CITED AUTHORITIES
Cases
Adkins v. Warden, 710 F.3d 1241, 1249 (11* Cir. 2013).........................
Alaimalo v. United States, 645 F.3d 1042 (9th Cir. 2011)........................
Bounds v. Smith, 430 U.S. 817, 828 (1977)................................................
Braden v. Walmart Stores, Inc.. 588 F.3d 585, 595 (8th Cir. 2009).......
Brown v. Greiner, 409 F.3d 523, 532-533 (2nd Cir. 2005)........................
Cargle v. Mullin, 317 F.3d 1196, 1205 (10* Cir. 2003)............................
Christian v. Farris, 701 Fed. Appx. 717 (10th Cir. 2017).......................
Cox u. Burger, 398 F.3d 1025 (8* Cir. 2005)...............................................
Davis v. Ayala, 192 L. Ed. 2d 323, 334 (2015)............................................
Davis v. Strack, 270 F. 3d 111, 122 (2nd Cir. 2001)...................................
Desai v. Booker, 882 F.Supp. 2d 926 (E.D. Mich. 2012)...........................
Gerber v. Varano, 512 Fed. Appx. 131, 134 (3rd Cir. 2013).....................
Gerber v. Varano, 512 Fed. Appx. 131, 134 n.2 (3rd Cir. 2013)...............
Gravley v. Mills, 87 F.3d 779 (6* Cir. 1996)...............................................
Hollingsworth v. Perry, 558 U.S. 183, 190 - 91 (2010)............................
House v. Bell, 547 U.S. 518 (2006)................................................................
Houser v. Dretke, 395 F.3d 560, 562 (5* Cir. 2004).................................
Huffman v. Ricketss, 750 F.2d 798 (9* Cir. 1984)....................................
Jefferson v. Welborn, 22 F.3d 286 (7* Cir. 2000).......................................
Jones v. Sussex I State Prison, 591 F.3d 707 (4* Cir. 2010)...................
Kerr. v. United States District Court, 426 U.S. 394, 400 (1976)............
Kotteakos v. United States, 328 U.S. 750 at 764-65 (1946).....................
Kristian v. Dep’t of Corr., 541 N.W.2d 623, 628 (Minn. Ct. App. 1996)
Mark v. Caspari, 92 F.3d 637, 641 (8* Cir. 1996)....................................
Mateo v. United States, 810 F.3d 39, 41 (1st Cir. 2002)............................
McMellon v. United States, 387 F.3d 329, 361 n.3 (4* Cir. 2004)........
Medina v. Barnes, 71 F.3d 363, 369 (10* Cir. 1995)................................
Mitchell v. Esparza, 540 U.S. 12, 17-18 (2003).........................................
Mooney v. Holohan, 294 U.S. 103 (1935)....................................................
Nardi v. Stewart, 354 F.3d 1134, 1139 (9* Cir. 2004).............................
Parker v. Gladden, 385 U.S. 363 (1966)......................................................
Petrocelli v. Angelone, 248 F.3d 877, 855 (9* Cir. 2001).........................
Rainey v. Varner, 603 F. 3d 18, 198 (3rd Cir. 2010)...................................
Roy v. Coxon, 907 F.2d 385 (2nd Cir. 1990).................................................
Roy v. Lampert, 465 F. 3d 964, 970 (9* Cir. 2006)...................................
Schlup v. Delo, 513 U.S. 298, 316 (1995)....................................................
PETITION by Udoh - Page v

18
18
21
5
18
18
6
8
17
14
15
6
16
20
ii, 3, 4
20
5
18
6
8
ii, 3, 4
21
21
18, 19
-6, 16
19
16
17
22
5, 15
15
5, 15
5
5, 18
5
20

Scott v. Schriro, 567 F.3d 573 (9th Cir. 2009)........................ .............
State v. Knaffla, 243 N.W. 2d 737, 741 (Minn. 1976).......................
Tamapua v. Shimoda, 796 F.2d 261 (9th Cir. 1986)........................
Toua Hing Chang v. Minnesota, 521 F.3d 828 n.3 (8th Cir. 2008) Turner u. Armontrout, 922 F.2d 492, 493 n.l (8th Cir. 1991)..........
United States v. Beaulieu, 194 F.3d 918 (8th Cir. 1999)...................
United States v. Davis, 726 F.3d 434 (3rd Cir. 2013)........................
United States v. Frederick, 78 F.3d 1370 (9th Cir. 1996)..................
United States v. Harfst, 168 F.3d 398 (10th Cir. 1999)......................
United States v. Hessman, 495 F.3d 977, 982 - 983 (8th Cir. 2007)
Valerio v. Crawford, 306 F.3d 742 (9th Cir. 2002)..............................
Walker v. Endell, 850 F.2d 470 (9th Cir. 1987)...................................

8
22
8
19
5
7, 20
7
7
16
19
6, 15
18

Statutes
28U.S.C. §2254..............
Fifth Amendment..........
Fourteenth Amendment

PETITION by Udoh - Page vi

8, 21
2
passim

LIST OF PARTIES
MONTY WILKINSON
Acting Attorney General of the United
States
SHAHRZAD BAGHAI
U.S. Department of Justice
Civil Division, OIL
P.O. Box 878, Ben Franklin Station
Washington, D.C. 20044

SOLICITOR GENERAL Of The United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

CLERK OF EIGHTH CIRCUIT
COURTS OF APPEALS
Thomas F. Eagleton U.S. Courthouse
111 South Tenth Street, Suite 24.329
St. Louis, MO 63102

HONORABLE CHIEF JUDGE
United States District Court
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

KEITH ELLISON
Minnesota Attorney General
1400 Bremer Tower
445 Minnesota Street
St. Paul, MN 55101

MICHAEL O. FREEMAN
Hennepin County Attorney
KELLY O’NEILL MOLLER
JONATHAN P. SCHMIDT
Hennepin County Attorney
C-2000 Government Center
300 South Sixth Street
Minneapolis, MN 55487

HONORABLE PAUL A. MAGNUSON

BECKY DOOLEY
WARDEN OF MOOSE LAKE PRISON
MCF - Moose Lake
1000 Lake Shore Drive
Moose Lake, MN 55069

United States District Court Judge
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

HONORABLE HILDY BOWBEER
United States Magistrate Court Judge
District of Minnesota
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

PETITION by Udoh - Page vii

CLERK OF U.S. DISTRICT COURT
United States District Court Judge
District of Minnesota, Clerk Office
300 South Fourth Street, Suite 202
Minneapolis, MN 55415

Page 1 of30

IN THE
SUPREME COURT OF THE UNITED STATES
NO.
EMEM UFOT UDOH,
Petitioner,
vs.
UNITED STATES DISTRICT COURT, District ofMinnesota,
Respondent.
ON PETITION FOR WRIT FOR CERTIORARI
TO REVIEW THE USCA8 CASE NO. 20-2952 IN
THE UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT (0:16-CV-4174 (PAM/HBI
INTRODUCTION
PLEASE TAKE NOTICE that the above named Petitioner, Emem Ufot Udoh. respectfully petition for a Writ of
Certiorari to review the USCA8 case No. 20-2952 in the United States Eighth Circuit Court of Appeals pursuant
to 28 U.S.C. $1254(1).
STATEMENT OF JURISDICTION AND VENUE
Petitioner filed a writ of mandamus at the United States Court of Appeals For The Eighth Circuit.
Petitioner, respectfully brought forth his Petition for a Writ of Mandamus under Rule 21 of Federal Rules of
Appellate Procedure for an Order directing Honorable District Judge Paul A. Magnuson to consider Petitioner’s
habeas claim titled or styled as:
Ground Four - Argued as Ground Two on Memorandum of Law:
The District Court erred in admitting evidences that were in violation of appellant’s due
process clause under the Fourteenth Amendment and denied appellant’s constitutional right
to a fair trial.
in his original habeas corpus petition, see ECF No. 1 at 12, Docket No. 1 at 12, see also ECF No. 72-3 at 12,
Docket No. 72-3 at 12 because no other adequate remedy for habeas corpus relief on that claim under Federal law
exist. The decisions or orders of the court are enclosed in the district court record, see 2017 U.S. Dist. LEXIS
110684 * 1 - *4 (D. Minn. July 17, 2017).

Page 2 of 30

The Eighth Circuit Court of Appeal denied Petitioner’s Writ of Mandamus on September 28. 2020. The
Eighth Circuit Court of Appeal also denied Petitioner’s timely petition for rehearing and rehearing en banc on
November 13. 2020. See Appendix and USCA8 No. 20-2952. On March 19, 2020, this Court extended the
deadline to file petitions for writ of certiorari in all cases due on or after the date of that March 19, 2020 order to
150 days from the date of the lower court judgment due to the ongoing public health concerns relating to COVID19. See (ORDER LIST): 589 U.S.

(March 19, 2020). Therefore, Petitioner’s petition for writ of certiorari is

due by April 13. 2021 under this Court’s March 19, 2020 Order. This Court’s jurisdiction is invoked under 28
U.S.C §1254(1) and §1254(2).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Relevant statutory and constitutional provisions involved in this case are as follows:
The Fifth Amendment provides in relevant part:
“No person shall be held to answer for a capital, or otherwise infamous crime, ... nor shall any
person be subject for the same offence to be twice put in jeopardy of life or limb; ... nor be
deprived of life, liberty, or property without due process of law ... .”
The Fourteenth Amendment of the Constitution provides in relevant part:
“No State shall ... deprive any person of life, liberty or property without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.”
RELIEF SOUGHT
Petitioner seeks an Order directing Honorable District Judge Paul A. Magnuson to consider Petitioner’s
habeas claim titled or styled as:
Ground Four - Argued as Ground Two on Memorandum of Law:
The District Court erred in admitting evidences that were in violation of appellant’s due
process clause under the Fourteenth Amendment and denied appellant’s constitutional right
to a fair trial.
in his original habeas corpus petition because no other adequate remedy exist for habeas corpus relief on that
claim. See Docket No. 1 at 12 of 24 (evidence showing that Petitioner raised this Ground Four claim in his
original petition), Docket No. 2 at 1 - 44 (evidence showing that Petitioner argued this Ground Four claim in his
Memorandum of law), Docket No. 9 at 1 - 2 (evidence showing that Attorney John Marti argued that Petitioner
raised this Ground Four claim - Admission of Corner House Evidence - in his Ongoing Habeas Corpus

Page 3 of 30

Proceeding), Docket No. 14 at 1 - 2 (evidence showing that Respondent answered this Ground Four claim in
Respondent’s Answer to the Petition), Docket No. 15 (evidence showing that Respondent argued this Ground
Four claim in Respondent’s Memorandum in Opposition of the Grant of Habeas Relief).
THE ISSUES PRESENTED FOR MANDAMUS RELIEF
Issue One: Honorable District Judge Paul A. Magnuson Failed To Consider Petitioner’s Habeas Claim Titled Or
Styled As:
Ground Four - Argued as Ground Two on Memorandum of Law:
The District Court erred in admitting evidences that were in violation of appellant’s due
process clause under the Fourteenth Amendment and denied appellant’s constitutional
right to a fair trial.
In Petitioner’s Original Habeas Corpus Petition Because No Other Adequate Remedy For Habeas Corpus Relief
On That Claim?
Apposite Authority
Kerr. v. United States District Court, 426 U.S. 394, 400 (1976)
Hollingsworth v. Perry, 558 U.S. 183, 190-91 (2010)
REASONS FOR GRANTING THE PETITION
1. Under Rule 21 of Federal Rules of Appellate Procedure, the failure to grant the Mandamus Reliefs requested
will “result in a fundamental miscarriage of justice.” See Udoh v. Vicki Janssen, Warden - Rush City, USCA8
Case No. 20-2391 (8th Cir. 2020) (Petitioner has filed an application to the Eighth Circuit Court seeking
authorization to file a second or successive habeas corpus petition based on evidence that demonstrate and
establish Petitioner’s actual innocence).
2. Grounds Four set forth in the §2254 petition is a substantial claim and a closed question that could result in a
vacatur, new trial or reversal of these wrongful convictions and unlawful sentences. This demonstrates a
likelihood of success that the §2254 petition will prevail on the merit with regards to this claim. This is an
extraordinary circumstance and exceptional reason to grant the Reliefs requested in this petition. During
Petitioner’s trial, the State introduced this prejudicial evidence - Admission of CornerHouse Evidence At
Appellant’s Trial In 2014). During trial, the district judge admitted into evidence the use of CornerHouse
videos as prior statement under Rule 801(d) (1) (b) in relevant part:

Page 4 of 30

THE COURT. Al, righr. we ate gmng

^

Groshek’s cross-examination of Grace Wernert0 review the second transcript, which is
ComerHouse videos, because I did have a _ PP
^ this s0 we can just keep the flow going.So
Kayla’s interview at ComerHouse, and w
ComerHouse videos as substantive evidence,
earlier today the defense objected to the admrsion
objection and admitted the video
And after reviewing the transcript of the irs
^ transcript 0f the second video, and I will
rdmftta“ro“ “ons,".en, statement also. And I -m gomg «o give my reasoning for the
record.
An out-of-court statement is not hearsay and is adml^e “^^ming^the statement, (3) the statement
testifies, (2) the declarant is subject to
to the jury in evaluating
is consistent with the declarant s testimony
( )
-d
801(d)(1)(B). A witness’s credibility
declarant’s credibility. And I c^e t0 Minnesota Rule ofEvi^nce^801(d)( X
as substantive
must have been challenged ^f°re ^Pr10
The tria, testim0ny and the prior
evidence. State versus Nunn, 561 N.W.2d 902, yuy (Minn.
;
d thafs state versus Zulu,
statement need not be identical, but shou
e rea
tbis
b th giris testified yesterday
706 N.W.2d 919, 924 (Minnesota Court ofre«|lding each of their
and were subject to cross-examination,
tbleirgcredibilitv And while the statements made at
statements at ComerHouse, which challenged *
^ that they are reasonably consistent.
ComerHouse and the testimony yesterday are not identica
^ would be helpful to the
And I find that admission of *~statements at
iUrv in evaluating their credibility. And,
5
. qai/vivi
ComerHouse are admissible as proof of prior consistent statements under 801(d)(1)(B).
going to be up to Ms. White to lay the foundation for that second video and
That said, obviously, it’s
aii . _
any objections can be made at that time. All right.
d) is issued by this federal court to compel performance of an act. Fed. R.
3. A Writ of Mandamus (we comman
individual, corporation or a public official if the act is to compel the
App. P. 21. This writ may be issued to an
performance of a ministerial doty in which the official must perform, where the right to the writ is ctearand
substantial justice. Id. This
indisputable. Id. This court has the power to issue all writs necessary to ensure
federal court has the power to issue such writ only when appeals cannot lie unde, the circumstances of this

case

(28 U.S.C. §1291 and §1292), and the right to the writ is appropriate

or is clear and indisputable. Kerr.

v. United States District Court. 426 U.S. 394, 400 (1976) (issuance of writ is an “extraordinary remedy”);
Hollingsworth v. Perry, 558 U.S. 183, 190

91

(2010) (defendants right to petition for writ of mandamus to

prevent district court rules was clear and indisputable).
4. Mandamus

is beyond the particular facts and
Relief should issue because the issues presented in this case

parties involved but for growing

interest of the public, society at large and integrity of the judicial system.

Page 5 of30

The state and federal courts holding cannot be squared or reconciled with this Court’s decisions on
constitutional law.
5. Mandamus Relief should issue because The Fifth and Ninth Circuits accept Petitioner’s allegations in his
Habeas petition or complaint as true and resolve all ambiguities in Petitioner’s favor. See Lambright v.
Stewart, 220 F.2d 1022, 1028 (9th Cir. 2000); Petrocelli v. Angelone, 248 F.3d 877, 855 (9th Cir. 2001); Nardi
v. Stewart, 354 F.3d 1134, 1139 (9th Cir. 2004). The lower court displayed no such assessment on July 14,
2Q20 even where the Fifth and Ninth Circuits “will resolve any doubt about whether the petitioner has met the
[ ] standard in his favor.” See Ramirez v. Drekte, 398 F.3d 691 (5th Cir. 2005); Braden v. Walmart Stores, Inc..
588 F.3d 585, 595 (8th Cir. 2009); Buxton v. Collins, 925 F.2d 816, 819 (5th Cir. 1991).
6. Mandamus Relief should issue because the lower court assessment on July 14, 2020 failed to liberally
construed Petitioner’s Habeas Petition (ECF No. 1, Docket No. 1 at 1 - 24) and Exhibits (A -1) attached, see
Docket No. 1-1 through 1-10: ECF No. 1-1: Exhibit A (71 Pages), ECF No. 1-2: Exhibit B (30 Pages), ECF
No. 1-3: Exhibit C (88 Pages), ECF No. 1-4 Through 1-8: Restricted, ECF No. 1-9: Exhibit I (10 Pages), and
ECF No. 1-10: Exhibit J (Civil Coversheet), expansion of the record and for evidentiary hearing under the
reasoning of Houser v. Dretke, 395 F.3d 560, 562 (5th Cir. 2004) that courts look at the application for relief,
his original petition, the district court opinion, the record and briefs, Petitioner’s memorandum of law, and
Petitioner’s Habeas Reply Brief filed in the district court, and findings all ambiguities in Petitioner s favor for
relief. The lower courts assessment conflicts with Stone, Solomon, Haines v. Kemer, 404 U.S. 519 (1972);
Erickson v. Pardus, 551 U.S. 89 (2007) holdings and their progeny, which held Federal Courts to be liberal
and give generous interpretation of pro se litigant claims in civil actions. See Williams v. Lockhart, 849 F. 2d
1134. 1138 (8th Cir. 1988) (liberally construing pro se pleading)', Turner v. Armontrout, 922 F.2d 492, 493 n.l
(8th Cir. \99\){pro se habeas petition are construed liberally); Rainey v. Varner, 603 F. 3d 18, 198 (3 Cir.
2010) (generously construing pro se pleading); Roy v. Lampert, 465 F. 3d 964, 970 (9th Cir. 2006) (liberally
construing pro se litigators do not lose right to hearing on the merit of their claim).

Page 6 of 30

7. Mandamus

Relief should issue because in the wake of Slack and having found debatable procedural bar , see

section III arguments

, the lower court displayed no such assessment on July 14, 2020 on Ground 4 (admission

of ComerHouse evidence) claim as

the Third, Fourth, Seventh, Ninth and Tenth Circuit have determined that

the court should simply take a “quick look” at the face of the complaint or habeas petition to determine
whether the petitioner

“facially alleged the denial of a constitutional right.” Lambnght v. Stewart, Id at 1026

(as two other circuits have recently held, we will simply take a “quick look” at the faee of the complaint to
determine whether the petitioner has “facially alleged the denial of a constitutional right”). The Lambnght v.
Stewart court granted relief because petitioner has “facially alleged” the denial of his constitutional right and
assuming the district court’s procedural ruling is debatable. Christian v. Farris, 701 Fed. Appx. Ill (10th Cir.
2017)(held it seems prudent to follow the approach of our sister circuits to take a “quick look” at petitioner’s
constitutional claims); Mateo v.

United States, 810 F.3d 39, 41 (1st Cir. 2002)(same); Gerber v. Varano, 512

Fed. Appx. 131, 134 (3rd Cir. 2013)(same); Valerio v. Crawford, 306 F.3d 742 (9th Cir. 2002)(same);
Jefferson v. Welborn, 22 F.3d 286 (7th Cir. 2000)(same).
8. Mandamus
habeas

Relief should issue because undisputed facts shows that, in this case, Petitioner’s complaint or

petition stated this Ground 4 claim. See the Petition submitted at the District Court:

process clause
to a fair trial.

under the Fourteenth Amendment and denied appellant s constitutional right

Petitioner also added supporting facts to the Ground 4 claim via Exhibit A1-A4 (referencing to Exhibit A1 for
Ground 4 facts); (actual Ground 4 facts but labeled as Ground 2); (referencing to Exhibit A2 for procedures
use

d to exhaust Ground 4 claim for relief); (showing Petitioner’s has exhausted state remedies on Ground 4

claim for relief). See Docket No. 1-1, ECF No. 1-1: Exhibit A (71 Pages) for supporting factual prove.
Undisputable facts shows that the Minnesota courts of appeals recognized the Ground 4 claim - Udoh raises
several issues that “the district court

erred by admitting certain evidence.” (“Udoh next challenges the

admission of evidence regarding the ComerHouse Interviews”); State v. Udoh, No. A14-2181, 2016 WL
687328 (Minn. Ct.

App. 2016). Undisputable facts also shows that the district court memorandum and order,

Page 7 of 30

in 2017 WL 2881126 *1 - *16 on July 6, 2017, did not address or even mention to this Ground 4 claim on
admission of evidence. Undisputed facts show that Petitioner filed a Rule 59 Motion for Reconsideration on
Ground 4 claim and the district court ruled that the admission of interview evidence as procedurally barred or
unexhausted on July 17, 2017. See 2017 U.S. Dist. LEXIS 110684 * 1 - *4.
9. Mandamus Relief should issue with respect to Ground 4, in light of the arguments already presented in
Petitioner’s Habeas memorandums (opening and reply briefs) at the district court in which Petitioner
incorporate as if re-alleged herein for brevity purpose. This Ground 4 claim is meritorious. Petitioner moves
this court to consider under Fed. R. Civ. Proc. 201 on judicial notice, the Magistrate Court findings in Udoh et
al v. Minnesota Department of Human Services et al, 2017 U.S. Dist. LEXIS 96018 * 1 - *13 (D. Minn. May
5, 2017) in Civ. No. 16-CV-3119 (PJS/SER) that supports the conclusion that Petitioner raised Ground 4 admission of Interview and CornerHouse evidence in state court and that his claim is not procedurally barred
and unexhausted. Fair-minded jurist will find reasonable debate between (a) Magistrate court conclusion that
Petitioner raised the issues in Ground four before the state court and (b) the habeas court conclusion on July
14, 2020 that Petitioner did not raised the issues in Ground Four before the state court before the state court
and is therefore procedurally barred and unexhausted. For the above reasons standing alone, Ground Four
deserves an encouragement to proceed further for granting a Mandamus.
10. On this Ground 4, in the admission of CornerHouse evidence under Rule 801(d)(1)(B), this court and Federal
Circuit has a clearly established law on the admission of evidence under Rule 801(d)(1)(B) in light of Tome v.
United States, 513 U.S. 150 (1995)(clearly established precedent standard for admission of evidence under
Rule 801(d)(1)(B)). The circuit courts in United States v. Beaulieu, 194 F.3d 918 (8th Cir. 1999) (held
[CornerHouse] evidence about abuse inadmissible under Rule 801(d)(1)(B) in light of Tome v. United States
holding). See also United States v. Frederick, 78 F.3d 1370 (9th Cir. 1996) (statement under Rule 801(d)(1)(B)
inadmissible under Tome v. United States because statements failed to meet the “temporal” requirement);
United States v. Davis, 726 F.3d 434 (3rd Cir. 2013)(held inadmissible under Rule 801(d)(1)(B) because
inconsistency alone is not a charge of recent fabrication). Because the question whether the admission of

}
Page 8 of 30

ComerHouse evidence is “unduly prejudicial” or caused “undue prejudice” to Petitioner’s trial is debatable
under Anderson v. Goeke, 44 F.3d 675, 678 — 679, n.2 (8th Cir. 1995); Estelle v. McGuire, 502 U.S. 62, 67-70
(1991)(whether admission of evidence violates Petitioner’s fundamental due process right to fair trial);
Kansas v. Carr, 577 U.S.___(2016)(same); Payne v. Tennessee, 501 U.S. 808, 825 (1991)(same); Darden v.
Wainwright, 477 U.S. 168, 179- 183 (1986)(same).
11. The district court assessments that Petitioner’s Ground 4 - admission of evidence claim for relief was not
exhausted in state court, is not supported by the record and is debatable amongst jurist of reason. Petitioner
argues in light of Dye v. Hofbauer, 546 U.S. 1 (2005); Baldwin v. Reese, 541 U.S. 27 (2004) holdings and
under the reasoning of Tamapua v. Shimoda, 796 F.2d 261 (9th Cir. 1986); Cox v. Burger, 398 F.3d 1025 (8th
Cir. 2005); Scott v. Schriro, 567 F.3d 573 (9th Cir. 2009); Jones v. Sussex I State Prison, 591 F.3d 707 (4th Cir.
2010) all supporting Petitioner’s position that he has “exhausted” the available state remedies on this
admission of evidence claim for relief under 28 U.S.C. §2254(B) (1) (A), 28 U.S.C §2254(c). To reasonably
support his stand and for brevity, Petitioner adopts the already presented arguments in Exhibit A2, see Docket
No. 1-1, ECF No. 1-1: Exhibit A at Pages. 60 - 71 (PETITIONER HAS EXHAUSTED STATE REMEDIES AND IS
NOT PROCEDURALLY DEFAULTED ON THE GROUNDS PRESENTED FOR HABEAS RELIEF).

12. In this case, defense counsel made an objection at trial on the prosecutor’s use of the ComerHouse
evidence and/or to the admission of the unduly prejudicial ComerHouse evidence at trial against
Defendant. The fact in Appellant’s case is materially and factually different from those in Nunn and
Zulu’s case. Appellant first note that, State v. Nunn was a murder case. Further, in Nunn and Zulu’s case,
there was no allegations from the Defense counsel about the victim’s motive to fabricate the murder and
abuse incidents. Defendants Nunn and Zulu did not plead actual innocence to the murder and abuse
charges at trial, the defense counsel in Nunn and Zulu’s case pleaded a theory of defense that did not
involve their actual innocence at trial, and the challenged prior consistent statements in Nunn and Zulu’s
case were statements made before the date or time that the actual murder and abuse incidents occurred.
Appellant second note that, the trial record, and the evidentiary hearing testimony from K.K.W. and

Page 9 of 30

K.C.W. shows that, the Defense counsel elicited the following testimony from K.K.W on crossexamination in (Trial T.553-54). Defense counsel asked Wallen if K.K.W had a reputation for dishonesty
among teachers and peers (Trial T.626). K.K.W’s mother testified that K.K.W had problems in school
and at home and had a reputation at home for lying (Trial T. 989-99). She testified that KCW is “sneaky”
and also has a reputation for dishonesty at home (Trial T. 903, 906). Appellant testified that K.K.W.
often got into trouble at school, and at home had a reputation for dishonesty (Trial T.960). The girls’
mother Tonya testified on behalf of Appellant (Trial T. 898). She claimed that KKW had a reputation at
home for lying and had behavioral problems at school (Trial T. 898-99) ... Tonya also claimed that
KCW was “sneaky” and had a reputation at home for being dishonest (Trial T. 903, 906). Tonya denied
that the girls told her Appellant was sexually abusing them (Trial T. 907). She claimed that KKW told
her she fabricated the abuse because she was mad that Appellant took her phone away (Trial T.908) ...
Appellant testified on his own behalf ... He claimed that KKW had reputation at home for dishonest
(T.960). He denied [the charges] (Trial Trial T.961-65).
13. Appellant had a clearly established due process right to a fair trial. See In re Welfare of D.D.R, 713
N.W2d 891 (Minn. 2006) (held that the cumulative effect of errors denied defendant’s right to a fair
trial); Estelle v. McGuire, 502 U.S. 62, 67-70 (1991)(recognized whether admission of evidence violates
Petitioner’s fundamental due process right to fair trial); Kansas v. Carr, 577 U.S.__ (2016)(same);
Payne v. Tennessee, 501 U.S. 808, 825 (1991)(same); Darden v. Wainwright, All U.S. 168, 179 - 183
(1986)(whether prosecutor’s use of evidence or statements violated the due process); Estelle v. Williams,
425 U.S. 501, 503 (1976)(recognized that the right to a fair trial is a fundamental liberty secured by the
Fourteenth Amendment); Chamber v. Mississippi, 410 U.S. 284 (1973)(evidentiary ruling that rises to a
due process violation). The evidentiary hearing record shows that the ComerHouse recordings and
statements from the recanting witnesses (K.K.W. and K.C.W.) were obtained without Consent, Miranda,
Privacy Notice, Tennessen Warnings. Appellant argues that, even if a challenge to any evidence obtained

'

V
Page 10 of 30

without Consent, Miranda, Privacy Notice, Tennessen Warnings are personal standing rights, such as
K.K.W. and K.C.W.’s standing or rights under the law, but that argument does not mitigate the
prejudicial effect of Defendant’s trial and appellate counsel’s failure to properly object and to raise these
issues because the unduly prejudicial interrogatory recordings obtained without Consent, Miranda,
Privacy Notice, Tennessen Warnings and the requirements set forth in Tome v. United States, 513 U.S.
150 (1995) should have been suppressed or excluded at Appellant’s trial. This is because there is a
reasonable probability that, but for trial and appellate counsel unprofessional errors, the result of the
proceeding would have been different.
14. Appellant points this court to its cases laws that already reasoned or adopted the bright line pre-motive
rule for Rule 801(d)(1)(B) under the reasoning applied in Weitzel v. State, 868 N.W. 2d 276, 279 (Minn.
2015) where this court recognized that “[i]n the absence of binding precedent within Minnesota, we may
look to federal law for guidance,” because the failure to adopt Tome’s reasoning implicates Appellant’s
constitutional right to a fair trial and the admission of said evidence becomes unduly prejudicial to
Defendant when used at trial. See State v. Minnesota, 818 F.2d 664, 666 (8th Cir. 1987); State v. Minor,
1990 WL 204280 (Minn. App. 1990); State v. Arndt, 285 N.W.2d 478, 480 (Minn. 1979). Appellant’s
trial counsel’s failure to properly object and appellate counsel’s failure to raise trial counsel
ineffectiveness claim on this issue, was objectively unreasonable under Tome v. United States, which
held that Federal Rule 801(d)(1)(b) embodies the common-law temporal requirement to include only
those prior statements made before the charged fabrication, ..., conditions that were not established in
this case. At trial, the defense called into question K.K.W. and K.C.W. credibility as a witness. During
cross-examination of K.K. W. and K.C. W., the defense counsel identified several inconsistences between
K.K.W. and K.C.W. trial testimony, and certain statements they made in a February 25, 2013 interview
with GR and BK at ComerHouse. Defense counsel also alleged that K.K.W. and K.C.W. had fabricated
those abuse incidents. Appellant argues that Rule 801(d)(1)(B) would only allow admission of prior

Page 11 of 30

consistent statements made before a motive to fabricate arises, and that K.K.W. and K.C.W. statements
at CornerHouse to GR and BK were made after a motive to fabricate the abuse arose.
15. The Tome’s analysis and rule interpretation is directly on point in this case and this court should agree
with it. At trial, the State used Rule 801(d)(1)(B) as its only foundation for the admission of the
CornerHouse evidence. But K.K.W. and K.C.W. interview with GR and BK at CornerHouse occurred
after the alleged motive for K.K.W. and K.C.W to fabricate the abuse arose. Therefore, K.K.W. and
K.C.W. “reasonably consistent” statements were not made prior to the time the alleged motive to
fabricate the abuse arose as required by the Rule 801(d)(1)(B). See United States v. Quinto, 582 F. 2d
224 (2nd Cir. 1978); United States v. Frederick, 78 F.3d 1370 (9th Cir. 1996); United States v. Beaulieu,
194 F. 3d 918 (8th Cir. 1999); United States v. Davis, 726 F. 3d 434 (3rd Cir. 2013).
16. Although, Minnesota Rule 801(d)(1)(B) does not explicitly reads or states a pre-motive requirement on
prior consistent statement, but this court could reasonably conclude from the Minnesota Supreme and
Appellate Court holding in State v. Minnesota, 818 F.2d 664, 666 (8th Cir. 1987); State v. Minor, 1990
WL 204280 (Minn. App. 1990); State v. Arndt, 285 N.W.2d 478, 480 (Minn. 1979) and its progeny, that
Minnesota Rule 801(d)(1)(B) implicitly and explicitly incorporated Tome’s pre-motive rule because the
admitted prior consistent statement under Rule 801(d)(1)(B) in both Nunn and Zulu casts were prior
consistent statement made before the murder and abuse incidents happened. In the alternative, Appellant
argues that a modification of law is reasonably required under Tome v. United States, which is the
landmark Supreme Court decision on this subject - admission of evidence under Rule 801(d)(1)(B).
Appellant’s good faith reliance and “arguments for an extension, modification, or reversal of existing
law” under Tome v. United States is supported by other state jurisdictions which have adopted and
applied Tome’s reasoning. See State v. Bujan, 142 P.3d 581, 587 (Utah Ct. App. 2006)(we are persuaded
that the Tome approach is the better view and therefore adopt the pre-motive requirement that appears to
be the prevailing position among state jurisdictions as well as the requirement under the federal rules of

Page 12 of 30

evidence); Bouye v. State, 699 N.E.2d 620 (Ind. Sup. Court. 1998) (although we are not bound by
decisions interpreting the federal counterpart, we find this Tome’s reasoning persuasive); Thomas v.
State, 429 Md 85 102-03, 55 A.3d 10, 20 (Md. 2012) (collecting federal and state cases applying Tome’s
reasoning). Appellant also points this Court to the vast majority of other States in the Eighth Circuit
jurisdiction such as Arkansas-(Rule 801 (d)( 1 )(ii)), Iowa-(Rule 5.801(d)(1)(b)), Nebraska-(27-801 Rule
801 (4)(a)(ii)), North-Dakota-(Rule 801(d)(l)(b)(i, ii)), South-Dakota-(Rule 19-19 801(d)(1)(b)), and
Missouri which have adopted plainly and explicitly the common-law rule and are consistent with Federal
rule on admission of prior consistent statements under Rule 801(d)(1)(B).
17. The Tome v. United States court decision also found that, the admission of this evidence under Rule
801(d)(1)(b) to be prejudicial against Defendant Tome. Appellant argument is supported by the
reasoning applied in United States v. Quinto where the court held such erroneous admission under Rule
801(d)(1)(B) to severely prejudiced Defendant’s right to a trial warranting reversal. The court in United
States v. Frederick held the same. The Eighth Circuit court in United States v. Beaulieu also held the
same. The court in United States v. Davis upheld Tome’s pre-motive rule. The court in United States v.
Al-Moayad, 545 F.3d 139 (2nd Cir. 2008) found a reversible error in such erroneous admission. Counsel’s
unprofessional errors in failing to properly object at trial and appellate counsel unprofessional error in
failing to raise trial counsel ineffectiveness claim on direct appeal as it relates to Tome’s reasoning
prejudiced Appellant because the use of the ComerHouse videos factored into the jury’ decision to
convict Appellant, even where the State’s case regarding penetration was very weak and far from
overwhelming. The State conceded at trial that the CornerHouse evidence was their “best evidence” as
compared to the recanting witnesses’ in-court trial testimony. Counsel’s unprofessional errors was
objectively unreasonable and unduly prejudicial to Appellant under the reasoning applied in State v.
Farrah, 735 N.W.2d 336, 344 - 45 (Minn. 2007) that “when a witness’ prior statement contains
assertions about events that have not been described by the witness in trial testimony, those assertions are

Page 13 of 30

not helpful in supporting the credibility of the witness and are not admissible under Rule 801(d)(1)(B)
Comm. Cmt. - 1989. “What seems important is that the exception should not be the means to prove new
[events, e.g. essential element of penetration-and-intrusion on Count-1 conviction] not covered in the
testimony of the [declarant or recanting witness].” Christopher B. Mueller & Laird C. Kirkpatrick,
Federal Evidence 405 (2d ed. 1994). See also E. Cleary, McCormick on Evidence, §49, p. 105 (2d ed.
1972) and People v. McClean, 69 N.Y.2d 426, 430 (1987).
18. Appellant’s right to a fair trial was violated from the unduly prejudicial effect of a jury watching-andrewatching ComerHouse videotapes and receiving said videotapes recordings and testimony from
ComerHouse interviewers (GR and BK) in substantive form to prove the truth of the matter not covered
by the testimony of the recanting witnesses where most courts that have adopted Tome’s pre-motive rule,
have held it to apply when the prior consistent statements are admitted as substantive evidence under the
reasoning applied by the Utah Supreme Court in State v. Bujan, No) 20060883, decided on July 18, 2008,
in affirming the opinion of the court of appeals in 142 P.3d 581 that even if the evidence should have
been admitted for rehabilitative purposes, that the trial court erred in admitting the evidence
substantively. Id at |9. This is because the ComerHouse evidence was admitted substantively under rule
801(d)(1)(B) and no limiting instructions was provided to the jury that the ComerHouse evidence was
only admitted for rehabilitative purposes. Id at f9. As such, the ComerHouse evidence was inappropriate
hearsay and its admission was improper. Id at ^9. The Utah Supreme Court in State v. Bujan also
concluded that said ComerHouse evidence would likewise be inadmissible under the rule of
completeness because it went beyond the information necessary to rebut the charges of recent
fabrication, Id at ^fl 0, because GR and BK testified to their entire conversation with K.K.W. and K.C.W.,
recounting chronologically everything they could remember of what K.K.W. and K.C.W. told them. Id at
TflO. In this case, GR and BK were not asked to complete or rebut any particular statements from K.K.W.
and K.C.W. prior testimony. Id at ^[10. Therefore, ComerHouse evidence as well as GR and BK

\
Page 15 of30

fairly presented this claim to the state court in light of the Second Circuit decision in Davis v. Strack, 270 F.
3d 111, 122 (2nd Cir. 2001) that point header can ‘fairly present’ a federal claim to a State Court and
Petitioner did the same in this claim. See App. 160 where Petitioner argued in a point header that he
expressly alerted the Minnesota Courts in his pro se briefs the federal nature of this claim on Ground Four 14)
- admission of evidence.
21. The lower court decision “overlooked” the standards this Court articulated in Sullivan v. Minnesota, 818 F.2d
664, 666 (8th Cir. 1987) which were designed to enforce the mandate of the due process challenges to
admission of evidence. See also State v. Minor, 1990 WL 204280 (Minn. App. 1990); State v. Arndt, 285
N.W.2d 478, 480 (Minn. 1979) and their progeny regarding the admission of evidence under Minnesota Rule
801(d)(1)(B), in which explicitly reads or states a pre-motive requirement on prior consistent statement. But
the district court ignored that Petitioner’s claim for relief in his original habeas petition. The lower court
assessments “overlooked” these debatable issues of law and facts. This decision contains error of law and
facts. The lower court denial of application of relief on admission of ComerHouse evidence conflicts with the
decision of Slack, Miller-El, Williams v. Taylor, 529 U.S. 362 (2000)(granting relief on claims); Valerio v.
Crawford, 306 F.3d 742, 748-793(9* Cir. 2002) (granting relief on the following claims - admission of
prejudicial evidence and prosecutorial misconduct); Lambright v. Stewart, 220 F.3d 1022, 1025 - 1031(9*
Cir, 2000)(granting relief on the admission of prejudicial evidence claim); Desai v. Booker, 882 F.Supp. 2d
926 (E.D. Mich. 2012)(delineated clearly established law as at 2012 on admission of prejudicial evidence that
violates due process); Petrocelli v. Angelone, 248 F.3d 877, 885 (9* Cir, 2001)(same); Nardi v. Stewart, 354
F.3d 1134, 1139 (9* Cir. 2004)(same). Therefore, consideration by this court is necessary to resolve these
conflicts and maintain uniformity with the federal courts on these issues.
22. Finally, any error in this case was not harmless and had “substantial and injurious effect” on the jury verdict
in light of Parker v. Gladden, 385 U.S. 363 (1966)(per curiam)(that lengthy hours of juror deliberations in a
trial “indicated] a difference among them as to the guilt of petitioner”); Fry v. Pliler, 168 L. Ed 2d 16, 26 &
n.4(collecting cases where “[cjourts often have been unwilling to find error harmless where record, as in this

Page 16 of 30

case, affirmatively shows that jurors struggled with their verdict”). Like in this case, the jury deliberated for
almost two days and had to re-watch the ComerHouse videos again is “.one point during their deliberations,
the jurors indicated that they might be unable to reach a unanimous verdict.” Medina v. Barnes, 71 F.3d 363,
369 (10th Cir. 1995); Fry v. Pliler, Id at 26 n.4 (same). Because the claims - admission of ComerHouse
evidence and “improper credibility vouching” have not been properly developed at the district court, remand
to the district court is necessary under the reasoning of Mateo v. United States, 810 F.3d 39, 41 (1st Cir.
2002)(Nevertheless, Mateo does assert that he has a constitutional claim, and it may have not been properly
developed because the district court accepted the state procedural bar arguments. Under these circumstances,
the matter should be remanded to give the district court a first crack at the constitutional claim) and Gerber v.
Varano, 512 Fed. Appx. 131, 134 n.2 (3rd Cir. 2013)(relief stage is preliminary, and “while our sister circuits
disagree somewhat” but generally concur that the “threshold level of review” is appropriate, especially when,
as here, only minor development of the record has occurred below on these claims).
23. Mandamus Relief should issue because undisputed facts show that, this Habeas case is devoid of any
Magistrate Judge findings of facts, report and recommendations. The adequacy of this habeas proceeding is
very questionable and the lower court assessments or resolution of this case violates the procedural
requirement of 28 U.S.C. §2243 by denying Petitioner’s substantive rights and opportunity to a Magistrate
Judge findings of fact, objection to or adoption of, on all Grounds raised for relief. In this case, Petitioner
adequately raised his ineffective assistance of both trial and appellate counsels (“IAC”) at the district court in
light of United States v. Harfst, 168 F.3d 398 (10th Cir. 1999) reasoning for granting relief when Petitioner
raised such new IAC claim in an objection or motion within the prescribed time limits. The Harfst court
found cause to excuse procedural default and proceeded to review the substance of Harfst’s claim. That
reasoning applies to this case because Petitioner raised the IAC claims in his Habeas Reply Brief (App. 184189) and in his Rule 59 Motion for Reconsideration. Sanders v. Cotton, Id at 580 (“attorney errors that
constitutes ineffective assistance of counsel is cause to set aside a procedural default”).

V

■'

J*

Page 17 of 30

24. Mandamus Relief should issue because in this case, it is undisputable that the Minnesota court of appeals
recognized and reviewed the merit of the serious prosecutorial misconduct error on improper credibility
vouching of state’s key witnesses but found the federal error to be “harmless” error. State v. JJdoh, No. AM2181, 2016 WL 687328 (Minn. Ct. App. 2016). That decision undoubtedly constitutes an adjudication of
Petitioner’s constitutional claim “on the merit” in light of Davis v. Ayala, 192 L. Ed. 2d 323, 334
(2015)(“[t]here is no dispute that the [Minnesota] Court held that any federal error was harmless beyond a
reasonable doubt under Chapman, and this decision undoubtedly constitutes an adjudication of [Petitioner’s
or Ayala’s] constitutional claim ‘on the merit’.”). See e.g., Mitchell v. Esparza, 540 U.S. 12, 17-18 (2003)(per
curiam). It is also undisputable that the state argued in Respondent brief, that Petitioner’s improper credibility
vouching claim was procedurally barred under Clark v. Bertsch, 789 F.3d 873 (8th Cir. 2015)(our decision in
plain error review and procedural bar are in apparent disagreement). The district court accepted the state’s
procedural-bar argument, which contravenes to Harris v. Reed, 489 U.S. 225 (1989) reasoning because the
last state court rendering a judgment in this case did not clearly and expressly states that it judgment rests on a
procedural bar.
25. The district court concluded in its memorandum and order, did not address or even mention to these improper
credibility vouching claim and that “those claims are procedurally barred.” The lower court resolution of this
claim conflicts with the decision of this court in Mitchell v. Esparza, 540 U.S. 12, 18 (2003)(“[w]e may not
grant respondent’s habeas petition, however, if the state court simply erred in concluding that the State’s
errors were harmless; rather, habeas relief is appropriate only if the [Minnesota] court of appeal applied
harmless-error review in an ‘objectively unreasonable’ manner.”). In this case, the Minnesota court harmlesserror review was “objectively unreasonable” in light of the arguments presented in section I and IV of this
petition.
26. In Lambright v. Stewart, Justice Ferguson opined that the “Supreme Court has made clear that the
application of an apparent controlling rule can nevertheless be debatable for purpose of meeting the [Barefoot,
Miller-El, and Slack] standard in several cases,” see Lozada v. Deeds, 498 U.S. 430, 431-32 (1991). The

V
Page 18 of 30

Supreme Court held that even though a question may be well settled in a particular circuit, like in this case on
the federal question of plain error review barring habeas merit-review, the petitioner meets the modest
[Mandamus] standard where another circuit has reached a conflicting view. On this question, the circuit courts
have reached conflicting view on the question of whether state court plain error merit-review bar habeas
merit-review. See Sanders v. Cotton, 398 F.3d 572, 579 - 580 (7th Cir. 2005) (state court’s reliance on
procedural bar was not sufficiently explicit to bar review because reference to procedural issue was
immediately followed by consideration of the merits of the ground for relief); Harding v. Sternes, 380 F.3d
1034, 1043 - 1044 (7th Cir. 2004)(same); Clinkscale v. Carter, 375 F.3d 430, 442 (6th Cir. 2004)(same); Riley
v. Taylor, 277 F.3d 261, 273-275 (3rd Cir. 2001)(same).
27. The lower court decision is contrary to the Second, Ninth and Tenth Circuits in Roy v. Coxon, 907 F.2d 385
(2nd Cir. 1990)(plain error review precluded a findings of procedural default); Brown v. Greiner, 409 F.3d
523, 532-533 (2nd Cir. 2005)(same); Walker v. Endell, 850 F.2d 470 (9th Cir. 1987)(same); Huffman v.
Ricketss, 750 F.2d 798 (9th Cir. 1984)(same); Cargle v. Mullin, 317 F.3d 1196, 1205 (10th Cir. 2003)(same) all
holding that if the state court reviews the merit of a federal issue, whether by plain error review or by other
review, the issue reviewed is not procedurally barred. See Adkins v. Warden, 710 F.3d 1241, 1249 (11th Cir.
2013) (no procedural default because claim was adjudicated on the merit).
28. “Similarly, in Slack, the Supreme Court recently held that an issue apparently settled by the law of our
[Eighth Circuit] remained debatable for the purposes of issuing a MANDAMUS, Slack, 120 S. Ct at 1064.”
Lambright v. Stewart, at 1026. Therefore, under “Slack [and Miller-El], it is thus clear that lower court should
not deny a [petitioner] an opportunity to persuade the [Court] through full briefing and argument to reconsider
circuit law that apparently forecloses [relief on meritorious claims such as serious prosecutorial misconduct
on improper credibility vouching of state key witnesses reviews under the plain error standard]. Id at 160607.” Id. Therefore, consideration by this court is necessary to maintain uniformity in the federal courts.
29. Mandamus Relief should issue because undisputed facts shows that some Eighth circuit case laws in Mark v.
Caspari, 92 F.3d 637, 641 (8,h Cir. 1996); Sweet v. Delo, 125 F.3d 1144, 1150 (8th Cir. 1997); James v.

»

► «*
Page 19 of 30

Bowersox, 187 F.3d 866, 869 (8th Cir. 1999) have repeatedly held that a federal court can consider claims
decided by state court plain-error review. So Petitioner’s Ground 4 - Prosecutorial Misconduct on Improper
Credibility Vouching should have been reviewed under Mark v. Caspari and their progeny. See Alaimalo v.
United States, 645 F.3d 1042 (9th Cir. 2011).
30. In this circumstance, undisputed facts shows that lower district courts within this jurisdiction have been
applying Clark v. Bertsch to foreclose habeas relief. That current practice is contrary to the circuit precedent
in Toua Hing Chang v. Minnesota, 521 F.3d 828 n.3 (8th Cir. 2008)(“[w]hen there is an intra-circuit split, we
are free to choose which line of cases to follow”-) because Clark v. Bertsch does not give the federal habeas
district court any liberty or discretion to choose which line of cases to follow. This practice conflicts with the
doctrine of “stare decisis” and the decision of United States v. Hessman, 495 F.3d 977, 982 - 983 (8th Cir.
2007) (held “a panel of this circuit court [like in Clark v. Bertsch] may not overrule circuit precedent [such as
Mark v. Caspari; Sweet v. Delo\ James v. Bowersox holding that a federal court can consider federal claims
decided by state court plain error]”) because “only the court enbanc can overruled circuit precedent” or Eighth
Circuit approved procedures held in Mark v. Caspari and their progeny. Consideration by this court is
necessary to provide important guidance to federal habeas court.
r

31. Furthermore, the Clark v. Bertsch principle of adhering to the very first panel decision, moreover, that
principle is still debatable under the reasoning of McMellon v. United States, 387 F.3d 329, 361 n.3 (4th Cir.
2004)(enbanc)(M?fz. J dissenting, “I note that agreement [or principle] among court of appeals on an issue even in thoughtful, well-reasoned opinions - does not invariable garnish Supreme Court approval [...
collecting cases where Supreme Court...] rejected a holding previously reached by most of the federal courts
of appeal”). Most especially, in cases such as this, that absolutely forecloses any habeas relief for innocent
people.
32. Moreover, while there is contrary Eighth Circuit authorities, the majority of the circuits hold no procedural
bar to plain-error review of a federal claim or issue. That in itself is a prima facie showing that deserve
encouragement to proceed further in light of Sanders v. Cotton, Id at 579 - 580; Harding v. Sternes (same);

>

* t*.

Page 20 of 30

Clinkscale v. Carter (same); Riley v. Taylor (same). The lower court decision not to consider this improperly
credibility vouching claim in light of Petitioner’s indevendent ineffective assistance of both trial and appellate
counsel claim in failure to object during trial and to raise this claim in direct appeal on these prosecutorial
improper credibility vouching of state’s key witness claim under the reasoning of Gravley v. Mills, 87 F.3d
779 (6th Cir. 1996)(held trial counsel failure to object to prosecutor’s improper comments constitutes “cause”
under the cause and prejudice standard to excuse federal habeas procedural default of constitution claims) is
contrary to the authoritative decisions of this court in Martinez v. Ryan, 566 U.S. 1 (2012); Trevino v. Thaler,
569 U.S. 413 (2013); Massaro v. United States, 538 U.S. 500 (2003), all holding that if the state court reviews
the merit of a federal issue, whether by plain error review or by other review, the issue reviewed is not
procedurally barred, even in the dare circumstances where the Petitioner did not raise the federal issue in state
courts, if Petitioner can demonstrate cause due to ineffective assistance of (trial and appellate) counsel under
the cause and prejudice standard.
33. Mandamus Relief should issue because Petitioner is entitled to habeas review under the fundamental
miscarriage of justice exception of his independent constitutional claims on Ground 4 (admission of Interview
and ComerHouse evidence, and improper credibility vouching-) in light of the newly discovered exonerating
evidence showing actual innocence based on the recantation affidavits of key material witnesses’ testimony in
Exhibits 1, 2, and 3 filed in the district court record on February 5. 2020. and entered in the district court
record on February 6. 2020. Schlup v. Delo, 513 U.S. 298, 316 (1995). This new evidence is sufficient to
overcome any state-procedural default rule and does entitle Petitioner to proceed for federal habeas relief on
Ground 4. House v. Bell, 547 U.S. 518 (2006).
34. Ground 4 - Admission of ComerHouse evidence claim is meritorious under United States v. Beaulieu, 194 F.
3d 918 (8th Cir. 1999); Tome v. United States, 513 U.S. 150 (1995) which is the landmark Supreme Court
decision on this subject - admission of evidence under Rule 801(d)(1)(B). See the Memorandum submitted at
the District Court in which Petitioners adopts as re-alleged herein for merit review and why this admission of
evidence was not harmless under both Chapman v. California, 386 U.S. 18 (1967) and Brecht’s standards.

' . »
Page 21 of 30

35. Ground 4 - Prosecution Improperly Vouching For the Credibility of Key State’s witnesses claim is
meritorious because it was a serious error, and in light of the Memorandum submitted at the District Court in
which Petitioners adopts as re-alleged herein for merit review and why this improper credibility vouching was
not harmless under both Chapman and Brecht’s standards.
36. Mandamus Relief should issue because all matters raised in this case were not effectively and adequately
reviewed in Petitioner’s Habeas corpus action at the federal court. These deficient reviews denied Petitioner a
full andfair hearing of his claims as guaranteed by Petitioner’s procedural and substantive due process rights,
and equal protection of law under the Fourteenth Amendment. The set of circumstances governing this case to
find violation of Petitioner’s substantive and procedural due process right to access to court and right to
judicial review is that: (a) The United States District Court and Habeas Court failed to apply these federal
legal standards requiring: Denovo judicial review; Harmless-error judicial review: Prejudice judicial review
analysis in light of Kotteakos v. United States, 328 U.S. 750 at 764-65 (1946)(court must determine that error
did not influence or only had slight effect on jury); and Brecht “substantial and injurious effect" standard
under Fry v. Pliler, 551 U.S. 112 (2007)(held in all 28 U.S.C. §2254 proceedings, a federal court must assess
the prejudicial impact of an alleged constitutional error in a state-court criminal trial under Brecht “substantial
and injurious effect” standard whether or not the state appellate court recognize the error ... [t]hat Brecht
applies in all §2254 cases) on this Ground Four Claim.
37. Petitioner was entitled to a Magistrate Judge findings of fact, report and recommendations once assigned to
this case under 28 U.S.C. §2254. §2241. §2242. §2243. §636. and Rule 72(bT If the federal court had applied
these legal standards to the claims presented for relief, there is a reasonable probability that the outcome of
the habeas review would have changed; and (4) the federal court failure to apply these legal standards and/or
to review the claims presented for harmless constitutional error caused the loss of relief and resulted in an
actual injury of one who is actually innocent for continued wrongful incarceration without a first effective and
substantive judicial review to challenge violations of his constitutional rights. See Bounds v. Smith, 430 U.S.
817, 828 (1977) (Prisoner have fundamental constitutional right to adequate, effective and meaningful access

Page 22 of 30

to court to challenge violations of constitutional rights); Kristian v. Dep’t o/Corr., 541 N.W.2d 623, 628
(Minn. Ct. App. 1996)(prison inmate have a constitutional right to access to the court that derives from the
due process).
38. This deficient review is contrary to the well settled law that it is “[u]pon the state courts, equally with the
union, rests the obligation to guard and enforce every right secured by the Constitution.” Mooney v. Holohan,
294 U.S. 103 (1935) (quoting Robb. Connolly, 111 U.S. 624, 637) and position inmates to a procedurally and
substantively disadvantage in any action of re-litigating the merit of their constitutional errors that the federal
court initially failed to effective and adequately address. This is so because these legal review standards are
available and critical to any successful appellate review Where (a) it was definitely impossible for any
Appellant (Petitioner) to have known the mind of the court - on whether or not the court in making its final
decision would apply these legal standards, even where these state andfederal constitutional legal standard
of reviews are available at the court’s disposals; and (b) there is no other procedural mean or platform to
adequately re-litigate these issues. In fact, the state and federal procedural framework (State v. Knaffla, 243
N.W. 2d 737, 741 (Minn. 1976) and AEDPA second/successive petition bar) makes it impossible to do so.
Thus, violates Petitioner’s substantive and procedural due process rights requiring ‘full andfair hearing” on
all claims.
39. Furthermore, the federal courts applications of these legal standards to certain cases, and failure to apply
these same standards to Petitioner’s pro se claims even when requested in direct appeal appellate and habeas
corpus briefs violates Petitioner’s rights to equal access to the court and to equal protection of law guaranteed
by the Fourteenth Amendment of United States Constitution and Minn. Const. Art I, section §§2, 7. Petitioner
was entitled to these legal standards by law.
40. Mandamus Relief should issue because there is absolutely no adequate remedy at law to address this Ground
Four claim” raised in Petitioner’s habeas corpus petition. This Ground Four claim is a “closed question” that
also involve Petitioner’s substantive and procedural due process liberty interest that is protected by the Due
Process Clause

' ¥ *■
Page 23 of 30

41. The Habeas Corpus §2254 Statute, under its terms, conferred on Petitioner a legal right to redress of his
Ground Four Claim to adequately satisfy substantive and procedural due process under the Fifth and
Fourteenth Amendments. Thus, Petitioner had a right to the redress and consideration he demanded from the
United States District Court Judge. Marbury v. Madison, (1 Cranch) 5 U.S. 137, 2 L. Ed 60 (1803). The Fifth
and Fourteenth Amendments prohibit the government, such as the United States District Court Judge, from
depriving an inmate of life, liberty or property without due process of law. U.S. CONST. Amends V, XIV.
Wolff v. McDonnell, 418 U.S. 539, 558 (1974); Wilkinson v. Austin, 545 U.S. 209, 220 - 24 (2005) (due
process clause prohibit government form infringing on prisoner’s liberty interest or legal rights without due
process of law). Mandamus Relief should issue because Petitioner protected liberty interest or legal right was
created by the Due Process Clause because Therefore, Habeas Corpus §2254 Statute is a federal-created
liberty interest or legal right to federal relief. Thus, Petitioner had a right to the redress and consideration he
demanded from the United States District Court Judge on Ground Four claim.
42. Mandamus Relief should issue because the constitution guarantees prisoners the right to a meaningful
access to the courts. Bounds v. Smith, 430 U.S. 817, 828 (1977) (Prisoner have fundamental constitutional
right to adequate, effective and meaningful access to court to challenge violations of constitutional rights)-,
Kristian v. Dep’t of Corr., 541 N.W.2d 623, 628 (Minn. Ct. App. 1996)(prison inmate have a constitutional
right to access to the court that derives from the due process). This right of access to courts imposes an
affirmative duty on the United States District Court Judge to “meaningfully” address and consider all the
inmate claims that are exhausted and not procedurally barred. Thus under Bounds v. Smith, Petitioner had a
right to the redress and consideration he demanded from the United States District Court Judge on Ground
Four claim. As such, the United States District Court Judge actions unreasonably interferes with Petitioner’s
due process and fundamental right to access to court under Bounds v. Smith-, Kristian v. Dep’t of Corr and
under Marbury v. Madison holding, Id at 137, where there is a legal right, there is also a legal remedy by suit,
or action at law, whenever that right is invaded. Id. Petitioner had a legal right, and this right was obviously
violated by the United States District Court Judge refusal to address and consider his Ground Four claim. Id.

Page 24 of 30

Thus, prohibiting Petitioner from meaningfully, adequately and effectively appealing these wrongful
convictions and a remedy under the United States laws is due. Christopher v. Harbury, 536 U.S. 403, 415
(2002) (to establish an unconstitutional denial of access to the courts, a prisoner must show a lost opportunity
to pursue a non-frivolous claim).
43. Mandamus Relief should issue because the due process requires that Federal proceedings be fundamentally
fair and adequate to vindicate Petitioner’s federal-created liberty interest. Osborne, 667 U.S. 52, 68
(2009)(held Petitioner does have a liberty interest in pursuing the post-conviction relief granted by the
[statute]). This is a federal created substantive right or liberty interest in post-conviction relief. Id at 68. The
Osborne court found such liberty interest in state statutes providing post-conviction relief procedures. Id at
2319. See also Whismanv. Rinehart, 119 F.3d 1303, 1322 (8thCir. 1997) (if ... a state statute gives specific
directives to the decision maker that if the statute’s substantive predicates are present ... a liberty interest
protected by the Fourteenth Amendment is created).
44. The issuance of Mandamus Relief in this case is necessary because the Ground Four claim presented or
raised in Petitioner’s original petition would otherwise escape review entirely under the reasoning of
Sampson v. United States, 724 F.3d 150, 161 (1st Cir. 2013)(writ of advisory mandamus granted where claims
or issues would otherwise escape review entirely.). The United States District Court Judge actions in refusing
to consider and address this Ground Four claim, for which there is no other means of relief clearly
contravenes to United States v. Higdon, 638 F.3d 233, 245 (3rd Cir. 2011) (writ granted when improper jury
charge error constituted clear and indisputable error for which there was no other means of relief). This is a
prejudicial structural error and an “error of the most fundamental character” that cannot be remedied without
granting a writ “in aid of jurisdiction.”
45. This court has the power to issue all writs necessary to ensure substantial justice as law and justice require.
Id. This federal court has the power to issue such mandamus writ for relief for the resolution of Petitioner’s
habeas corpus petition claim under Rule 21 of Federal Rules of Appellate Procedure because Petitioner
suffers serious irreparable harm by the United States District Court Judge actions in refusing to consider and

* b*
Page 25 of 30

address this Ground Four claim under the reasoning of In re Roman Catholic Diocese of Albany, N. V, Inc.,
745 F.3d 30, 37 (2nd Cir. 2014) (writ granted because Petitioner would suffer serious harm by exposure of
confidential information); In re Lott, 424 F.3d 446, 450 (6th Cir. 2005)(writ granted directing district court to
vacate order granting discovery request for privileged communication because no other adequate remedy on
final appeal). There is absolutely no other remedy and absolutely no threat or likelihood of harm to
Respondents with the Reliefs requested.
46. For the foregoing reasons above, Petitioner prays that this court issue a Mandamus for the resolution of
Petitioner’s Ground Four claim raised in his original habeas petition for fairness, integrity, and the public
reputation of the judicial system. It is of the public interest against the imposition of wrongful convictions and
unlawful sentences.

See the University of Michigan,

The National Registry of Exonerations.

(http://www.law.umich.edu/ special/exoneration/Pages/detaillist.aspx'). It is of the public interest in preserving
family and not separating parent and children. See Shuti v. Lynch, 828 F.3d 440, 450 - 51 (6th Cir. 2016)
concluding that “[Petitioner] is set to begin “life sentence of exile from what has [been his] home” ...
deprived of his “established means of livelihood” and separated from “his family of American citizens.” See
Jordan v. De George, 341 U.S. 223, 243 (1951) (Jackson, J. dissenting). Furthermore, Judicial Economy is
of the public interest to grant the Reliefs requested in this motion.
47. The undersigned declares under penalty of perjury that the information contained therein is true and correct.
28 U.S.C §1746, 18 U.S.C §1621.
CONCLUSION
48. Wherefore, Appellant pray the court grants the writ and issue the relief sought on Ground Four claim.
Dated: March 8. 2021

Respectfully Submitted,

H
Emem U. Udoh, 245042
7600 525th Street
Rush City, MN 55069

IN THE
SUPREME COURT OF THE UNITED STATES
No.
EMEM UFOT UDOH,
Petitioner,
vs.
UNITED STATES DISTRICT COURT, District of Minnesota,
Respondent.

CERTIFICATE OF COMPLIANCE

Pursuant to Rule 33.2(b). Petitioners certifies that this Petition complies with the page
limitation in that rule. According to Microsoft Word 2019, the word processing program used to
produce this Petition, it contains 25 pages.

Dated: March 8, 2021

Respectfully Submitted,

Emem U. Udoh, 245042
Pro se Litigant,
7600 525™ Street
Rush City, MN 55069

